                                  UNITED STATES
                          NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                     February 25, 2014



MEMORANDUM TO:            Mark A. Satorius
                          Executive Director for Operations

                          J. E. Dyer
                          Chief Financial Officer


FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  AUDIT OF NRC’S IMPLEMENTATION OF THE FEDERAL
                          MANAGERS’ FINANCIAL INTEGRITY ACT FOR FISCAL YEAR
                          2013 (OIG-14-A-11)


This report reflects the Office of the Inspector General’s assessment of the Nuclear
Regulatory Commission’s (NRC) fiscal year (FY) 2013 compliance with the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA). We found that NRC complied with the
FMFIA requirements.


BACKGROUND
The FMFIA, enacted on September 8, 1982, requires ongoing evaluations and reports of the
adequacy of the systems of internal accounting and administrative control of each executive
agency. Further, the FMFIA requires that, each year, the head of each executive agency
report to the President and the Congress on their agency’s compliance with the FMFIA
requirements.
                 Audit of NRC’s Implementation of the Federal Managers’ Financial Integrity Act For Fiscal Year 2013




Effective beginning with FY 2006, Office of Management and Budget (OMB) Circular No.
A-123, Management’s Responsibility for Internal Control, revised December 2004, requires
agencies to include the annual FMFIA report as part of the Performance and Accountability
Report under the heading “Management Assurances.” Additionally, this circular requires
management to provide a separate assurance statement relating to the effectiveness of
internal control over financial reporting.


RESULTS
In the agency’s FY 2013 Performance and Accountability Report, the NRC Chairman
provided reasonable assurance that internal control over operations, compliance with laws
and regulations, and internal control over financial reporting were operating effectively and
no material weaknesses were found. The Inspector General concurs with the assurances
made and found that NRC complied with the FMFIA requirements.


AGENCY COMMENTS
The Executive Director for Operations and the Chief Financial Officer reviewed the OIG draft
report and had no comments.


SCOPE/CONTRIBUTORS
We audited the internal controls related to NRC’s implementation of the FMFIA for FY 2013,
and conducted our work during January 2014 and February 2014, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. This audit was conducted by Eric Rivera, Team Leader; Terri Cooper,
Audit Manager; and Gail F.P. Butler, Senior Auditor.


If you have any questions, please contact me at 415-5915 or Eric Rivera, Team Leader, at
415-7032.
